w_

No. 19A-108

(3n f\\t

frvupxtmt (Eoorf of t\\t

$fafo®

Mark Thompson
(Petitioner,
v.

Board of Education City of Chicago, et al.
(Respondents.

On Petition for A Writ of Certiorari to the United States
Court ofAppeals for the Seventh Circuit

|ltixihxn fur

|®rti n{ Ceritnrart
Mark Thompson
Petitioner, Pro Se
P.0. Box 8878
Champaign, IL 61821
drmarkthompson@aol.com
(217) 480-6256
April 20, 2020

RECEIVED
APR 3 0 2020
9r,sn^°EFcT5u^K

I.

Questions Presented

1. Did the lower federal courts err in not permitting petitioner’s claims for injunctive relief
against a state branch if the ongoing state proceedings violate his U.S. constitutional rights?
2. Can the Seventh Circuit rule a pro se Title VII claim appeal frivolous, fine him $21,350, and

impose a filing bar preventing him from litigating an ongoing Title VII Right to Sue claim if
the grounds upon the dismissal include disputable judicial noticed facts without an
opportunity to be heard, juxtaposes a prior state court ruling, and ignores material errors?
3. Did the lower federal courts err in dismissing an ongoing injunctive relief claim required by

state statute to be filed in a court of competent jurisdiction relating to an ongoing Title VII
post-harassment claim and unchallenged in a motion to dismiss?
4. Did the lower federal courts err in dismissing a Title VII claim on the same state procedural

grounds a state court previously used to deny a motion to amend to add the Title VII claim?
5. Can the dismissal of state claims in state court be used for res judicata purposes to dismiss a

separately filed related Title VII claim removed to federal court after the state court used its
own rules and procedures to deny adding the related Title VII claim?
6. Does a defendant acquiesce to Title VII claim-splitting by agreement, litigating separate
cases, or arguing against a motion to amend to add a Title VII claim citing state court
procedures before removing the Title VII claim to federal court?
7. Did the lower courts err in denying petitioner the right to sue a judicial hearing officer for

injunctive relief presiding over a state administrative dismissal hearing being used outside its
statutory authority to violate petitioner’s U.S. constitutional and Title VII rights?
8. Does petitioner’s complaint warrant a complete reset upon learning the presiding judge has a

former law firm partner who’d be a material character witness had he not dismissed the case?

i

II.

Parties to the Proceedings and Other Relevant Cases
Petitioner - Plaintiff

Mark Thompson (“petitioner”) - A United States (“U.S.”) African-American citizen of 55
years, U.S. Army veteran of six years, and former teacher of 18 years who privately coached
numerous high school and grade school athletes including a 16/17-year old recipient of
mental health services in Lake County, Illinois from August 2009 to April 2010 who was not
living or coached under of the jurisdiction of his employer located in Cook County, Illinois.
Respondents - Defendants
Board of Education City of Chicago (“Board”) - Petitioner’s former employer located and
operating in the jurisdiction of Cook County, Illinois.
Illinois State Board of Education - (“ISBE”) State agency for education overseeing a
hypothetical administrative dismissing hearing against petitioner.
Northshore University HealthSystem - Employer of Dr. Claudia P. Welke.
Harold Ardell - Former Board investigator.
Linda Brown - Board Inspector General investigator.
Forrest Claypool - Former Board Chief Executive Officer (“CEO”).
Jane Doe - Non-Board mental health recipient the Board solicited to file false rape claims
against petitioner in retaliation for filing a lawsuit against the Board. Doe also filed a motion
for sanctions against petitioner after filing a third lawsuit against her relating to new conduct
after the first two lawsuits were filed.
Jane Doe’s Mother — parent of Jane Doe residing in Lake County, Illinois.
Reginald Evans (“Evans”) - Former school principal and supervisor of petitioner.
Thomas Krieger - Former Board attorney for labor related grievances.
Dan Nielsen - Former ISBE Hearing Officer presiding over a petitioner’s hypothetical hearing.
James Sullivan - Former Board Inspector General.
Claudia P. Welke - Jane Doe’s therapist.
Alicia Winckler - Former Board Human Resources Officer.

ii

Relevant Cases
Case #
1 -

Date Commenced

Date Concluded

Disposition

Removed to Federal Court
10-L-14372 December 20,2010 March 11,2011
Cook County Circuit Court. Mark Thompson v. Board, Deborah Edwards-Clay,
Reginald Evans, Harlan High School, Piccolo Specialty School
Settlement
February 15, 2015
ll-cv-1172
March 11,2011
U.S. District Court Northern District of Illinois. Thompson v. Board, Keith
Brookshire, Deborah Edwards-Clay, Reginald Evans. Case involved Title VII retaliatory
14-days suspension without pay claim related to a coerced PED accusation.

2-

Dismissed with Prejudice
13-L-879
November 2E 2013 February 5, 2015
Lake County Circuit Court. Mark Thompson v. Board HS District 113, Board, Village
ofDeerfield, Harold Ardell, Linda Brown, Reginald Evans, Audris Griffith, Jane Doe’s
Mother, Jane Doe, Jane Doe’s Sister, Stephanie Locascio, James Sullivan, Ed Wong III.
Illinois Appellate Court 2nd Dist. March 15, 2016
Affirmed
September 28, 2016 Leave to Appeal Denied
Illinois Supreme Court
Case involved Jane Doe rape claims leading to petitioner’s suspension without pay prior
to his unrelated employment termination on August 16, 2013.

3-

Dismissed with Prejudice
13-ch-26625 December 2, 2013
August 19, 2014
Cook County Circuit Court. Mark Thompson v. Claudia Welke, PhD, Stephanie
Locascio, M.S. NCC, LPC, Northshore University HealthSystem - Highland Park
Hospital and Jane Doe.
Illinois Appellate Court 1st Dist.
April 29, 2016
Affirmed
September 28, 2016 Leave to Appeal Denied
Illinois Supreme Court
Case involved injunctive relief for an in-camera review of Jane Doe’s relevant mental
health records related to her rape claim against petitioner.

4-

December 9,2013
Continuing/Stayed
Continuing/Stayed
N/A
Cook County Circuit Court Jurisdiction. ISBE Administrative Dismissal Hearing. In
the Matter of the Charges for Dismissal Preferred Against Mark Thompson, Respondent,
by The ChiefExecutive Officer of the Board ofEducation of the City of Chicago. Case
involves charges related to Jane Doe’s rape claims against petitioner.

5-

Dismissed with prejudice
14-cv-6340
AuRust 14, 2014
March 22, 2018
U.S. District Court Northern District of Illinois. Consolidated. See above for parties.
Affirmed
October 24, 2019
Seventh Circuit of Appeals
Seventh Circuit Court of Appeals November 25, 2019 Rehearing En Banc Denied
TBD
TBD
United States Supreme Court
Case originally involved Title Vll claim for retaliatory termination. When consolidated it
involved two other Title VII claims from Case #6 and Case #10.

iii

6-

14-L-606
August 26, 2014_____ September 29, 2014 Removed to Federal Court
Lake County Circuit Court. Dr. Mark Thompson v. Board. Case involved Title VII
retaliation suspension without pay claim related to Jane Doe’s rape claim.
14-cv-7575
September 29, 2014 December 11, 2014 Consolidated with Case #5
U.S. District Court Northern District of Illinois. Dr. Mark Thompson v. Board. Case
involved Title VII retaliation suspension without pay claim related to Doe’s rape claim.

7-

14-cv-6838
September 4, 2014
December 11, 2014 Consolidated with Case #5
U.S. District Court Northern District of Illinois. Dr. Mark Thompson v. Board, Harold
Ardell, Linda Brown, James Sullivan, Alicia Winckler. Case involved new Jane Doe rape
claims related to ISBE dismissal hearing commenced on December 9, 2013 in Cook
County after Doe claims were originally filed Lake County. Illinois Personnel Record
Review violations statutorily required to be filed in either Cook County or federal court.

8-

14-cv-6929
September 8. 2014
December 19, 2014 Dismissed with prejudice
U.S. District Court Northern District of Illinois. Mark Thompson v. Jorge Ortiz. Case
involved injunctive relief for using state procedures to deny a motion to amend a
complaint to add a related Title VII claim (14-cv-7575, Case #6).

9-

Dismissed without prejudice
14-ch-15697 September 29. 2014 N/A*
Cook County Circuit Court. Dr. Mark Thompson v. Board and Dr. Byrd-Bennett
Illinois Appellate Court ls< Dist.
June 10,2016
Affirmed
September 28, 2016 Leave to Appeal Denied
Illinois Supreme Court
Case involved injunctive relief related to the Board using an ISBE dismissal hearing
without subject matter jurisdiction since the Board no longer employs petitioner and was
required by statute to be filed in Cook County, Champaign County, or federal court; but
not Lake County where old Jane Doe claims had already been filed.
* Three of four counts were dismissed without prejudice on Lebruary 25, 2015 pending a
final adjudication of Case #4 above: ISBE Administrative Dismissal Hearing. In the
Matter of the Charges for Dismissal Preferred Against Mark Thompson, Respondent, by
The ChiefExecutive Officer of the Board of Education of the City of Chicago. The
following appeals were to challenge the dismissal without prejudice pending the ISBE
Hearing with arguments petitioner should not have to wait to challenge subject matter
jurisdiction.

10

Withdrawn
16-cv-7933
August 8, 2016
March 23, 2017**
U.S. District Court Northern District of Illinois.
Claims refilled with Case #5
Dr. Mark Thompson vs. Board, ISBE, Forrest Claypool, Jane Doe. Case involves an
ongoing Title VII claim related to Case #4 (ISBE dismissal hearing) that is intertwined
with Case #9 of which neither has reached a final adjudication.
** Lawsuit originally withdrawn on March 23, 2017 and dismissed without prejudice.
Claims were refilled with Case #5 (consolidated) and dismissed with prejudice.

iv

III.

Table of Contents

I.

Questions Presented.....................................................................................................................

II.

Parties to the Proceedings and Other Relevant Cases.............................................................. n

III.

Table of Contents......................................................................................................................... v

IV.

Table of Authorities.....................................................................................................................

VI

V.

Petition for A Writ of Certiorari................................................................................................

1

VI.

Opinions Below...........................................................................................................................

1

VII. Jurisdiction...................................................................................................................................

1

VIII. Constitutional and Statutory Provisions Involved...................................................................

2

IX.

3

X.

XI.

Statement of the Case..................................................................................................................

t

Argument to Grant the Writ....................................................................................................... 12
A. The federal courts erred in not permitting petitioner to add claims for prospective relief
that violate his 14th Amendment U.S. Constitutional rights........................................................ 14
B. The Seventh Circuit erred in ruling pro se's appeal is frivolous, charging him $21,350, and
imposing a filing bar until fees are paid since the grounds upon its dismissal ruling juxtaposes
a prior state Appellate and no opportunity was given to dispute any judicially noticed facts .16
C. Lower federal courts erred in dismissing a claim not challenged for dismissal; occurred in
and was required to be filed in court of competent jurisdiction................................................ 17
D. The lower courts erred in dismissing all three Title VII claims at the pleadings stage and
thus denied petitioner a full and fair opportunity to be heard................................................... 20
1. The court erred is dismissing a new and continuing Title VII post-harassment claim......... 20
2. The lower federal courts erred in dismissing a Title VII claim on identical state procedural
grounds used to deny a motion to amend to add the Title VII claim................................................ 21
3. The lower federal courts erred in using dismissed state court claims to dismiss a Title VII
claim after state court procedures were used to deny the Title VII claim to be joined with the later
dismissed state claims.......................................... ........ ............................................. .................... 23
4. The lower federal courts erred in using unrelated state claims dismissed in state court to
dismiss a retaliatory dismissal Title VII claim in federal court after the Board acquiesced to claim­
splitting by prior agreement, litigated cases separately, and removed a Title VII claim after arguing
against an amended complaint................................... .................................................................. 23
5. Summary of the three Title VII Right to Sue dismissals.................................................... 26
E. Judicial officers can be sued if acting outside their scope of authority by presiding over a
hypothetical administrative dismissal hearing................................................................. 27
F. Federal judge who dismissed petitioner's lawsuit had a former law partner who would have
30
been called to testify as a material character witness
Conclusion..........................................................................

Certificate of Service
Separate Appendixes A & B

v

31

IV.

Table of Authorities

Federal Cases
21,22,23,26
Alexander v. Gardner-Denver, 415 U.S. 36
15
Allen v. McCurry, 449 US 90 (1980)..........
23
Blonder-Tongue Laboratories, Inc. v. University ofIllinois Foundation et al., 402 U.S. 313
Creek v. Village ofWesthaven, No. 95-1465 (7th Cir. 1996)......................................................
19
16
Johnson v. City of Shelby, Mississippi, 135 S. Ct. 347................................................................
19
LaSalle National Bank v. County ofDuPage, 856 F.2d 925, 931 -33 (7th Cir. 1988).............
Lumen Const., Inc. v. Brant Const. Co., Inc., 780 F. 2d 691 (7th Cir. 1985)............................
15
21,22,25
McDonnell Douglas Corporation, v. Green, 411 U.S. 792
15
Mitchum v. Foster, 407 US 225 (1972)...............................
17
Montana v. United States, 440 US 147 (1979)...................
.20
Nevada v. United States, 463 U.S. 110, 129-130(1983)....
19
Perkins v. Board of Trustees of the University ofIllinois, 116 F.3d 235, 236 (7th Cir. 1997)
20
Robinson v. Shell Oil Co., 519 U.S. 337 (1997)...........................................................................
27
Pulliam v. Allen, 466 U.S. 522 (1984).................... .....................................................................
20
University of Tennessee v. Elliott, 478 U.S. 788, 795-96 (1986)...............................................
24
Walczakv. Chicago Board, ofEducation., 739 F.3d 1013, 1018 (7th Cir. 2014)...................
Federal Statutes
United States Constitutional Amendment XIV, Section 1.............................

28 U.S.C.
28U.S.C.
28 U.S.C.
42 U.S.C.
42 U.S.C.
42 U.S.C.
42 U.S.C.
42 U.S.C.

§ 455(b)(2)....................................................................
§ 1254..........................................................................
§ 1291.....;....................................................................
§ 1983 ..........................................................................
§ 2000e-2(a)(l) ..............................................................
§ 2000e-3(a)...................................................................
§§ 2000e-5(c)(e).............................................................
§ 2000e-5(f)(l)...............................................................

Federal Rules of Evidence Rule 201. Judicial Notice of Adjudicative Facts

2, 14, 16, 27
2,30
1
10
2, 14, 15, 16, 27
2, 12
2, 12
21
21
16

Illinois State Cases
Belleville Toyota, Inc. v. Toyota Motor Sales, U.S.A., Inc., 199 Ill. 2d 340 (2002)........
Cooney v. Rossiter, 2012 IL 113227, If 18, 986 N.E.2d 618, 621.....................................
Jones v. Industrial Comm'n, 335 Ill. App. 3d 340, 343, 780 N.E.2d 697, 700 (2002)....
Lake Co. State's A tty v. Human Rights Comm’n, 601 N.E.2d 1294 (111. App. Ct. 1992)
Rein v. David A. Noyes & Co., 665 N.E.2d 1199, 1207 (111. 1996)............. .....................

14
25
15
35
25

Illinois State Statutes
14
Illinois Constitution Article 1, § 2.............
14, 15,27,29
105 1LCS 5/34-85 (Illinois School Code)
..... 18,27,28
325 ILCS 5 et seq. (Child Reporting Act)
7
740 ILCS 110/1 et seq. (Mental Health and Developmental Disabilities Confidentiality Act
6, 18, 19, 20,28
820 ILCS 40/1 et seq. (Illinois Personnel Record Review Act)

vi

V.

Petition for A Writ of Certiorari
Mark Thompson respectfully petitions this court for A Writ of Certiorari to review the

judgments of the United States Court ofAppeals for the Seventh Circuit (“Seventh Circuit”) and
rulings of the United States District Court for the Northern District of Illinois (Eastern Division)
(“District Court') the Seventh Circuit did not address.

VI.

Opinions Below
The Seventh Circuit’s Order denying pro sepetitioner’s appeal, Order denying Petition

for Rehearing En Banc, Sanction Order, and other relevant documents from the Seventh Circuit
are located in Separate Appendix A. Other federal court, state court proceedings and other
proceedings are located in separate B or A.

VII.

Jurisdiction
The Seventh Circuit denied petitioner’s Petition for Rehearing En Banc on November 25,

2019, making the A Writ of Certiorari original due date Monday, February 24, 2020. On
February 11, 2020, petitioner timely filed with the United States Supreme Court (“Supreme
Court”) an Application for a 60-day extension of time to file a petition for a Writ of Certiorari.
On February 18, 2020, Supreme Court justice Brett Kavanaugh granted Thompson’s application
for a 60-day extension with a new due date of Thursday, April 23, 2020. The jurisdiction of this
Honorable Supreme Court rests upon 28 U.S.C. § 1254.

1

VIII. Constitutional and Statutory Provisions Involved
United States Constitutional Amendment XIV, Section 1:
All persons born or naturalized in the United States and subject to the jurisdiction
thereof, are citizens of the United States and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any State deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection of the laws.
42 U.S.C. § 1983
Every person who, under color of any statute, ordinance, regulation, custom, or usage, of
any State or Territory or the District of Columbia, subjects, or causes to be subjected, any citizen
of the United States or other person within the jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper proceeding for redress, except that in
any action brought against a judicial officer for an act or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted unless a declaratory decree was violated or
declaratory relief was unavailable.
42 U.S.C. § 2000e-2(a)(l)
It shall be an unlawful employment practice for an employer to fail or refuse to hire or to
discharge any individual, or otherwise to discriminate against any individual with respect to his
compensation, terms, conditions, or privileges of employment, because of such individual’s race,
color, religion, sex, or national origin.
42 U.S.C. § 2000e-3(a)
It shall be an unlawful employment practice for an employer to discriminate against any
of his employees or applicants for employment, for an employment agency, or joint labormanagement committee controlling apprenticeship or other training or retraining, including on—
the-job training programs, to discriminate against any individual, or for a labor organization to
discriminate against any member thereof or applicant for membership, because he has opposed
any practice made an unlawful employment practice by this subchapter, or because he has made
a charge, testified, assisted, or participated in any manner in an investigation, proceeding, or
hearing under this subchapter.
28 U.S.C. § 455(a)(b)(2)
Any justice, judge, or magistrate judge of the United States shall disqualify himself in
any proceeding . . . [wjhere in private practice he served as lawyer in the matter in controversy,
or a lawyer with whom he previously practiced law served during such association as a lawyer
concerning the matter, or the judge or such lawyer has been a material witness concerning it.

2

IX.

Statement of the Case
In February 2010, petitioner’s 10-year* and still continuing saga began when his high

school supervisor, principal Evans, purportedly attempted to help the new football coach obtain
petitioner’s Physical Education (“PE”) teaching and coaching positions by soliciting a teacher to
file a false sexual harassment claim against the petitioner and then coercing a 16-year old student
to falsely claim petitioner provided him performance enhancing drugs (“PED”). The teacher
refused to engage in staging a false sexual harassment claim but petitioner was removed from his
coaching position pending Department of Children and Family Services (“DCFS”) and Board
investigations into the PED allegations. In May 2010, after the DCFS investigation was
“Unfounded,” principal Evans handed petitioner an “Excellent” evaluation citing he had
followed Board rules and informed him no disciplinary action was going to be taken against him
relating to the Board’s PED investigation. But a month later a co-worker tipped petitioner Evans
was going to eliminate the male PE department to get rid of him so he could later install a new
PE position for the football coach under the guise of budgetary causes. After learning the football
coach falsified his student teaching, petitioner went to the next school board meeting and made a
complaint against Evans and the football coach. Evans retaliated by transferring petitioner from
PE to U.S. History the next day - never transferring him back to PE despite positions reopening.
In August 2010, petitioner filed his first U.S. Equal Employment Opportunity Commission
(“EEOC”) charge against the Board based on the elimination of the male PE department and
subsequent transfer. After the Board received petitioner’s EEOC charge in September 2010, they
retaliated again by suspending petitioner for 14 days without pay based on the Board’s PED
investigation, despite Evans prior notification to petitioner that no disciplinary action would be
taken - prompting another EEOC charge against the Board.
3

On December 20, 2010 petitioner filed his first lawsuit against the Board in Cook County
circuit court (10-L-14372) before removal to federal court on March 11, 2011 (1 l-cv-1712, Case
#])'. A Second Amended Complaint (“SAC”) included the retaliatory 14-day suspension without
pay EEOC charge in April 2011. The Board retaliated again by soliciting Jane Doe, an 18-year
old recipient of mental health services, to make false claims to her therapist, Dr. Claudia P.
Welke, that petitioner raped her at one of his private coaching practices in March 2010 when she
was 17-years old. Dr. Welke contacted DCFS in Cook County to report Jane Doe’s rape claims
under the guise she was a student at petitioner’s school while withholding personal knowledge
the rape claim was not only false but solicited by the Board. The Board then obstructed DFCS
investigators from notifying petitioner of Jane Doe’s false rape claim by confiscating his DCFS
notification mail and falsely claiming he was unavailable for an interview. The Board then
covertly subpoenaed AOL petitioner’s private emails from AOL without his permission or
knowledge,2 including confidential email communications with the attorneys who were
representing him in his federal lawsuit (1 l-cv-1712, Case #1) against the Board.
In late January 2012, an investigator with the Board’s Office of the Inspector General
(“OIG”) interviewed petitioner seeking his training schedule with Jane Doe from 2010.
Petitioner could not recall exactly from memory and inadvertently provided the OIG investigator
an incorrect schedule. The OIG investigator then relayed the incorrect training schedule to Jane
Doe for the purpose of submitting to law enforcement a false story that put petitioner at the time,
day, and scene of her false rape claim. Jane Doe then used an inaccurate training schedule to
create a fantastical rape story to the Vernon Hills Police Department (“VHPD”) detailing how

1 See Procedural Case History Flowchart on page 11 for a list of all ten cases.
2 Because petitioner’s case was dismissed at the pleadings stage, discovery has never commenced far
enough to determine if Board officials actually received any of petitioner’s emails. Petitioner suspects the
Board did indeed receive copies of his private emails.
4

she remembered it was just getting dark before a 6 PM practice start on March 18, 2010 and
petitioner supposedly got mad after she wasn’t running fast enough during practice, lured her to
his car to get equipment, forced her into the car from behind, punched her in the face, and raped
her in the back seat of his car after telling her, “I’m going to show you what a black man is all
about.” Jane Doe then told police she came back to practices for another month pretending
nothing happened but couldn’t explain why no mark was left on her face. Before the VHPD
investigated petitioner as to Jane Doe’s rape claims, petitioner had constructed an indisputable
accurate training schedule from his 1-PASS electronic toll records indicating all of petitioner’s
practices in 2010 were completed prior to 6 PM and did not even practice on the day Jane Doe
claimed she was raped. Petitioner also passed a lie detector test three times and a copy of all text
messages and emails exchanged between them clearly reflected a professional relationship. As
such, petitioner was never arrested or charged with any crime against Jane Doe.
On May 23, 2012 the Board retaliated again when Evans issued petitioner a pretextual
“Unsatisfactory” evaluation for U.S. History^ after inputting the “Unsatisfactory” rating two days
before the actual evaluation

a violation of the Board-Chicago Teacher’s Union (“CTU”)

contract. The Board retaliated again days later by removing him from his school related to Jane
Doe’s Board-solicited false rape claim in May 2011 - the Board ensuring petitioner received an
“Unsatisfactory” evaluation before he was removed from student contact. In August 2012, the
Board retaliated again by charging petitioner with forcibly raping Jane Doe when she was 17years old in March 2010 and suspended him without pay pending an ISBE administrative
dismissal hearing - despite having already been cleared by statutory authorized DCFS and police

3 Earlier in the school year an ISBE audit uncovered that petitioner was never qualified to teach U.S.
History through federal standards the school was required to follow. The Board threatened to tenninate
petitioner’s employment if he didn’t become qualified.for U.S. History instead of moving him back to PE
where he had seniority over the male teacher in the position.
5

investigations. In September 2012, petitioner’s attorney withdrew from his case upon becoming
pregnant, leaving petitioner without an attorney and forcing him to argue his case pro se for ten
months. When petitioner amended his federal complaint (ll-cv-1712, Case #1) in December
2012 to add new claims related to Jane Doe’s solicited false rape claim, the then presiding judge
ordered the Board to turn over the investigative file related to petitioner’s suspension without
pay, citing the Illinois Personnel Review Act (“IPRRA”), 820 ILCS 40710(g)

where an

investigative file becomes a part of the personnel file once disciplinary action is taken. After it
was discovered the judge’s partner was a material witness in the case and recused himself, a new
judge struck petitioner’s Fourth Amended Complaint and ordered him to correct it after noting
deficiencies or the case would be dismissed in its entirety. Instead of attempting to litigate a
more complicated case that involved Jane Doe’s mental health records, the petitioner and the
Board agreed to litigate Jane Doe’s false rape-related claims separate from all other claims at the
state level. As such, petitioner withdrew all Jane Doe false rape related claims from his Fifth
Amended Complaint. The judge also issued a statement that no more extensions will be granted
in the case. Two months later in July, the Board retaliated again against the petitioner by
terminating his employment effective August 16, 2013

citing budgetary reasons. A CTU

grievance process discovered that petitioner’s termination was related his “Unsatisfactory”
evaluation after a Board attorney directed the dates of his pretextual evaluation be changed to
falsely reflect the evaluation was performed in accordance with the Board-CTU contract.
On November 21, 2013, in good faith reliance with petitioner’s agreement with the Board
to split claims, petitioner refiled the Jane Doe false rape related claims in a second lawsuit (13-L879, Case #2) against the Board, Jane Doe, and others in the 19th Judicial Circuit Court in Lake
County, Illinois

a limited court of jurisdiction as to the Board’s Cook County jurisdiction.

6

Petitioner filed the lawsuit in Lake County because the Board’s investigative file indicated the
Board rape solicitation misconduct with Jane Doe occurred in Lake County - and the only
damages petitioner had incurred at that time were monetary. On December 2, 2013, a statutory
required lawsuit4 (13-ch-26625, Case #3) was filed by petitioner’s CTU attorney against Jane
Doe and Welke in Cook County to compel an in-camera review for relevant mental health
records after ISBE Hearing Officer Dan Nielsen issued a pre-dismissal hearing ruling they were
relevant to Jane Doe’s rape claim. Nielsen ruled the Board relied upon therapist statements
provided to Board investigators to form the basis of the Board’s charges against the petitioner.
On December 9, 2013, despite no longer employing the petitioner, the Board retaliated
again by filing formal charges related to Jane Doe’s false rape claim in an ISBE dismissal
hearing against the petitioner in Cook County {Board v. Petitioner, Case #4) - prompting new
Title Vll-related claims in the Cook County jurisdiction against the Board, Jane Doe, and others
for retaliation and conspiracy. At the onset of the ISBE hearing, the Board acknowledged they no
longer employed the petitioner but the hearing proceeded hypothetically to determine if he’d be
entitled to back pay had the Board still employed him. After three days of testimony, on
December 12, 2013, the dismissal hearing was stayed with two witnesses left to call and Jane
Doe on standby pending litigation of the instant matter.
On May 29, 2013, petitioner received his 90-day Right to Sue notice from the U.S.
Justice Department relating to petitioner’s Jane Doe false claim related 11-month suspension
without pay that needed to be joined with his Lake County case (13-L-879, Case #2); and
petitioner’s retaliatory termination based on the Board’s falsified “Unsatisfactory” evaluation
unrelated to Jane Doe’s false rape claim. The EEOC informed petitioner his Right to Sue notice
4 Illinois statute 740 ILCS 110/10 requires a court order for the disclosure of mental health records if the
therapist or mental health recipient objects to disclosure, which was the case upon Jane Doe and Welke
receiving Nielsen’s subpoenas.
7

could be used for both Title VII claims in separate lawsuits. After petitioner hired an attorney for
his federal case (11 -cv-1712, Case #1) and a global settlement did not materialize, petitioner
filed a motion in Lake County circuit court on August 1, 2014 to address the issues of adding the
related Title VII claim to his complaint (13-L-879, Case #2).
In a good faith agreement with the Board to litigate Jane Doe-related claims separate and
the judge in the first case stating no extensions, petitioner filed his fourth lawsuit (14-cv-6340,
Case #5) on August 18, 2014 in federal court related to the Board falsifying petitioner’s
“Unsatisfactory” evaluation to terminate his employment. On August 26, 20]4,5petitioner had
his motion heard relating to adding a Title VII claim to his complaint (13-L-879, Case #2) in
Lake County state court. The judge expressed anger that petitioner’s case was transferred to him
and denied his motion to amend completely unrelated to federal procedures. Petitioner was then
involuntarily forced to file his related Title VII claim as a separate stand-alone lawsuit (14-L606, Case #6) to meet the 90-day Right to Sue deadline. On September 4, 2014, petitioner had to
file a sixth lawsuit (14-cv-6838, Case #7) against the Board in federal court relating to the new
Jane Doe claims after the Board filed related charges against the petitioner in the hypothetical
1SBE dismissal hearing {Board v. Petitioner, Case #4). On September 8, 2014, petitioner filed a
complaint for declaratory and injunctive relief against the Lake County judge for using state
procedures to deny petitioner’s motion to amend his case to add his Title VII claim (14-cv-6929
Case #8). The case was later dismissed for lack of jurisdiction to grant relief when the Lake
County case went to the Appellate court on appeal. On September 29, 2014, the Board removed
the Lake County Title VII lawsuit (14-L-606, Case #6) to federal court (14-cv-7575, Case #6)
before petitioner’s motion to withdraw it could be heard.
5 Due to no fault of his own, petitioner’s motion related to his Title VII claim needing to be added was not
acted upon by the state court until August 26, 2014, just one day prior to the 90-day Right to Sue notice
expired, because the judge was in a trial and the acting judge did not want to rule in his place.
8

Petitioner’s eighth lawsuit (14-ch-l5697, Case #9) was filed on September 29, 2014 in
Cook County after research supported a state administrative agency such as the 1SBE cannot
conduct a dismissal hearing without subject matter jurisdiction over a party being charged. Since
the Board had already terminated petitioner’s employment as a tenured teacher due to an
“Unsatisfactory” evaluation, Illinois statutes and case law supported petitioner’s argument that
the Board lost jurisdiction to bring dismissal hearing charges against him in an ISBE hearing
{Board v. Petitioner, Case #4). However, the circuit court judge’s ruling in the case (14-ch15697, Case #9) ignored pleadings the Board no longer employed the petitioner. The Appellate
court added that petitioner waived subject matter jurisdiction when he voluntarily participated in
the dismissal hearing. Petitioner’s case was dismissed without prejudice, ruling that petitioner
must first exhaust his administrative remedies in the dismissal hearing first {Board v. Petitioner,
Case #4) before challenging the Board and ISBE’s subject matter jurisdiction over him.
In December 2014, the district court consolidated three of petitioner’s four then pending
federal cases (14-cv-6340, Case #5; 14-cv-7575, Case #6; 14-cv-6838; Case #7) against the
Board despite presenting written documentation supporting a prior agreement with the Board to
litigate Jane Doe rape related claims separate from other claims. In February 2015, the Board
settled the other pending federal case (11 -cv-1712, Case #1) after petitioner was successful in
advancing it to pre-trial. On April 16, 2015 the Board filed a motion to dismiss petitioner’s
consolidated case (14-cv-6340, Case #5) where 11 counts proceeded pending a SAC. However,
the judge later stayed the case on February 17, 2016, citing potential res judicata implications on
the pending Lake County court case. While the consolidated case (14-cv-6340, Case #5) was
stayed, and over a year after his Lake County case was dismissed, petitioner received another
Right to Sue Title VII notice on May 9, 2016 relating to the stayer/ISBE dismissal hearing and

9

timely filed the corresponding federal lawsuit on August 8, 2016 (16-cv-7933, Case #10).
Petitioner later withdrew the lawsuit (16-cv-7933, Case #10) and refiled the claims with a SAC
in the consolidated lawsuit (14-cv-6340, Case #5). The district court did not permit the petitioner
to file for prospective relief against the ISBE and others, claiming the underlying statutes being
violated do not give rise to a private cause of action. In May 2017, after the Lake County case
(13-L-879, Case #2) had exhausted its appeals, defendants filed motions to dismiss on res
judicata grounds against all counts except Count VIII - related to the Board’s use of an
“Unfounded” DCFS report in the stayed ISBE hearing (Board v. Petitioner) - required to be filed
in Cook County, Champaign County, or federal court by statute. Defendants also formed the
basis of their res judicata argument that the Cook County case (14-ch-l 5697, Case #9) had been
dismissed with prejudice

when it was really dismissed without prejudice pending final

adjudication of the ISBE dismissal hearing (Board v. Petitioner, Case #4). On March 21, 2018,
the district court proceeded to dismiss all of petitioner’s claims, relying upon thirteen disputable
judicially noticed facts without giving petitioner the opportunity to dispute them and ignored the
argument Count VIII was never challenged for dismissal against the Board. The Seventh Circuit,
under the jurisdiction of 28 U.S.C. § 1291, hammered petitioner in his appeal, ignored
petitioner’s arguments concerning the district court’s disputable thirteen statements and Count
VIII not being challenged against the Board, and then claimed his appeal was frivolous,
sanctioned him $21,350 with a filing ban until its paid - despite the fact that most of the
dismissed claims were related to the two not yet adjudicated cases - the ISBE hearing (Board v.
Petitioner, Case #4) and Cook County case (14-ch-l5697, Case #9) that was dismissed without
prejudice pending final adjudication of Case #4. (The Statement of the Case is a compilation
from the pleadings and proceedings from the ten cases listed on pages iii and iv of this petition).

10

PROCEDURAL CASE HISTORY FLOWCHART
FEDERAL DISTRICT COURT CASES

1

11-0-1712
Match II. 201/
Federal Claims

O

Combined
Unrelated Jane Doe Claims
Jane Doe Related Claims

v_____
ll-cv-1712

11-0-1712
-1- December 4. 2012

["\ I

0

r

11-0-1712

Mays. 201J
Unrelated Jane Doe Claims

M-cv-6340
August IS, 2014
Title VII Termination Claim
not permitted to merge with ll-cv-1712

5

[Z ____ >

v

Consolidated - 5,6,7,10

j

6

J4-c\-6m
September 4. 2014
New Jane Doc Claim v. Board
ISBK Hearing Related

it. 2014

'

M-cv-6340
November 2S, 2019
Consolidated
Dismissed with prej. - Res Judicata
Petition Tor Rehearing Denied

&

14-o-6340

14-ev-757S
September 29. 2014
' Old Jane Doclltlc VII Claim
Suspension without pay - 13 months

71

JJ February II. 2015
Retaliatory 14-dav suspension
without pay Title VII SETTLED

/ >,

/S
16-0-7933
August 8. 2016
Post-Kmployment Title VII
ISBK Hearing Related
Withdrew claims to 14-CV-634Q

L

8

14-0-6929
Q_______________

14-0-6929
September A. 2014
Old Jane Doc Claim v. Ortiz
Injunctive relief to add Case #6 with #2

Oj
October 26. 20IS
Old Jane Doc Claim v, Ortiz
Dismissed with prejudice

Federal case «3 above was
dismissed with prejudice
on itsjudicata grounds
despite most of the cluims
being related to Cases *4
and ^9 and neither having
Trnchgd a final adjudication

COOK COUNTY CIRCUIT COURT CASES

3
1

10-1,-14372
---- December 20, 2010
Federal Claims
Removed to Federal Court
^

13-ch-26625
December 2. 2013
New Jane Doc Claims
ISBK Hearing Related
Injunctive Relief v. Doc
Mental Health Records
Board v. Petitioner
December 9. 2013

3|

u

Non-final Adjucated Related Cases
Board v. Petitioner

9

4
14-ch-15697
September 29, 2014
New Jane Doc Claims v. Board
ISBK Hearing Related

9

c

n
13-L-879
November 21, 2013
Old Jane Doc Claims
v Board, Doc
Split from H-cv-H72

14-L-6Q6
August 26, 20/4
Old Jane Doc Title VII Claim
Involuntary Claim-split
Removed to Federal Court

6

U

Current
New Jane Doe Claims
ISBK Hearing Related
Still Continuing - Stayed
14-ch-15697

February' 15. 2015
New Jane Doc Claims v. Board
ISBK Hearing Related
**Dismissed without prejudice**
Pending Board v Petitioner

LAKE COUNTY CIRCUIT COURT CASES

2f

V

ISBK Hearing Related
Dismissed with prejudice

U.Z\

-------New Jane Doe Claims
ISBK Hearing Hclatcd

[

13-cb-26625
August 19.2014
New Jane Doe Claims

r>

2}

13-L-B79

February' 3. 3015
Old Jane Doc Claims
v Board, Doc
Dismissed with prejudice

X.

Argument to Grant the Writ

Introduction
Petitioner, who is an African-American citizen in a federally protected class, is poised to
become the first citizen in U.S. history to be hypothetically dismissed from an employer who no
longer employs him (seven years and counting) as a result of ongoing unconstitutional post­
employment retaliation and harassment through a an ISBE dismissal hearing that petitioner
cannot be a legal party to. If the current lower court rulings were to stand, the Seventh Circuit’s
monetary and filing bar sanction in response to petitioner’s efforts to stop the Board’s post­
employment harassment would leave petitioner unconstitutionally defenseless to prevent the
Board from continuing to misuse the ISBE hearing that the U.S. constitution and other applicable
laws were designed to prevent.
Besides U.S. constitutional violations, the center of the Board’s persistent and continuing
acts of lawlessness is The Civil Rights Act of 1964 (“Act”) signed into law by former President
Lyndon B. Johnson upon Congressional approval. The Act prohibits discrimination in a broad
array of private conduct including public accommodations, governmental services and education.
One section of the Act, referred to as Title VII, prohibits employment discrimination based on
race, sex, color, religion and national origin. 42 U.S.C. § 2000e-2(a)(l). Title VII of the Act
created the EEOC - whose mission is to eliminate unlawful employment discrimination. The Act
also prohibits discrimination in recruitment, hiring, wages, assignment, promotions, benefits,
discipline, discharge, layoffs and even retaliation for filing an EEOC charge or Title VH-related
lawsuit. 42 U.S.C. § 2000e-3(a).6

6 www.eeoc.gov/eeoc/history/35th/thelaw/index.html
12

Petitioner has received at least six 90-day Right to Sue notices from the U.S. Department
of Justice since 2010 due to the Board’s obsessive Title VII employment and current post­
employment misconduct that even crossed back and forth between two state county jurisdictions.
As a result of new federal and state claims between two jurisdictions and a prior agreement to
litigate Jane Doe rape-related claims separately that split the first federal case into a second case
litigated in Lake County state court, numerous amended complaints and new lawsuits followed
in three court jurisdictions. Three Title VII claims were erroneously dismissed on res judicata
grounds after state claims in Lake County circuit court were dismissed. One Title VII claim was
misinterpreted as a dismissal by the federal court using the same state court procedures used to
deny a motion to add the Title VII claim to his related state claims before removal to federal
court. A second Title VII claim was dismissed despite no relation to the dismissed Lake County
claims. A third Title VII claim was dismissed despite its relation to an ISBE dismissal hearing
that continues today. As petitioner arguments will show, he has never had a full and fair
opportunity to have any of these three Title VII claims litigated before they were dismissed on
res judicata grounds - making the EEOC Title VII Right to Sue notice non-legit, subject to
arbitrary dismissal, and a trap for sanctions after citing clearly erroneous errors upon appeal.
A Writ of Certiorari is therefore warranted to uphold the legitimacy of petitioner’s U.S.
constitutional and Title VII employment and post-employment Right to Sue notices, hold
individuals and organizations accountable for soliciting teenagers to file false rape claims against
employees as an despicable and evil act of retaliation, and to ensure petitioner has constitutional
rights to the courts to litigate a still ongoing Title VII claim after the Seventh Circuit placed a
filing bar sanction on petitioner for pursuing his rights under the U.S. constitution and the Act to
try to stop continued Title VII harassment and identifying dismissal errors on appeal.

13

Argument
A. The federal courts erred in not permitting petitioner to add claims for
prospective relief that violate his 14th Amendment U.S. Constitutional rights
The 14th Amendment of the U.S. Constitution provides in part that:
“...No State shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.”
On September 29, 2014, petitioner filed a four count complaint for declaratory judgment
and permanent injunctive relief in Cook County court against the Board and then CEO Barbara
Byrd-Bennett (14-ch-15697, Case #9). The case challenged subject matter jurisdiction after the
Board brought charges against petitioner in a hypothetical ISBE dismissal hearing (Board v.
Petitioner, Case #4) without statutory authority under Illinois School Code (105 ILCS 5/34-85)
and in violation of the Equal Protection Clause of the Illinois Constitution Article I, § 2. The
Cook County court dismissed three of four counts without prejudice,7 ruling petitioner must first
exhaust his administrative remedies regarding the ISBE hearing (Board v. Petitioner, Case #4)
before challenging subject matter jurisdiction

ignoring pleadings the Board no longer

employed petitioner. (App. B, 310-A313). This absurd ruling in effect implies harassed citizens
are required to fully participate in sham hearings they can’t be a legal party to until it’s been fully
adjudicated. In the absence of supporting statutory authority, this ruling most certainly gives rise
to prospective relief under 42 U.S.C. § 1983. Subject matter jurisdiction challenges in Illinois
state court requires immediate due process to address the matter - regardless of how insufficient
the pleadings are (Belleville Toyota, Inc. v. Toyota Motor Sales, U.S.A., Inc., 199 Ill. 2d 340
(2002)) - and a party is not required to exhaust his administrative remedies before seeking relief

7 The circuit court dismissed one count with prejudice related to Abuse of Power.
14

if he does not fall under the definition of a party to an administrative proceeding. Office of the
Lake County State’s Attorney v. Human Rights Commission, 235 Ill. App. 3d 1036, 601 N.E.2d
1294 (Ill. App. Ct. 1992). The Appellate court sidestepped the ISBE hearing’s non-party status
issue by ruling when petitioner “elected to proceed with a discharge hearing, the ISBE had
subject matter jurisdiction over the matter.” (App. B, A-327, ^ 15). However, the appellate ruling
actually relates to “personal jurisdiction,” as subject matter jurisdiction cannot be waived. Jones
v. Industrial Comm'n, 335 Ill. App. 3d 340, 343, 780 N.E.2d 697, 700 (2002). No court to date
has ever cited any statutory authority that gives the Board legal subject matter jurisdiction in an
ISBE dismissal hearing over a person they don’t employ as a tenured teacher - required by
Illinois School Code (105 ILCS 5/34-85). The Illinois Supreme Court denied hearing petitioner’s
appeal, thus leaving the federal court system as the only option to address state courts making up
rulings that impose upon a citizen’s U.S. Constitutional rights. Allen v. McCurry, 449 US 90
(1980) at 101; Lumen Const., Inc. v. Brant Const. Co., Inc., 780 F. 2d 691 (7th Cir. 1985) at 697.
Petitioner’s operating SAC included Counts XV-XVI1I (App. B, A53-A61) for
prospective relief relating to the Board’s misuse of an ISBE dismissal hearing (Board v.
Petitioner, Case #4) after Jane Doe’s rape claim was already “Unfounded” by DCFS, and also
charging someone they don’t employ, both without statutory authority and actionable under 42
U.S.C. § 1983. The judge denied the four counts sua sponte, ruling the statutes cited by
petitioner do not provide a private cause of action. (App. B, A335, K 3 - A336, ^ 10). But
petitioner doesn’t need a private cause of action if the conduct alleged violates his U.S.
constitutional rights. “. . . this Court long ago recognized that federal injunctive relief against a
state court proceeding can in some circumstances be essential to prevent great, immediate, and
irreparable loss of a person's constitutional rights.” Mitchum v. Foster, 407 US 225 (1972) at

15

242. Even though petitioner did not cite 42 U.S.C. § 1983 in his pleadings,, petitioner was not
provided an opportunity to correct deficiencies before dismissing with prejudice. “In particular,
no heightened pleading rule requires plaintiffs seeking damages for violations of constitutional
rights to invoke § 1983 expressly in order to state a claim.” Johnson v. City of Shelby,
Mississippi, 135 S. Ct. 347. The Seventh Circuit’s ruling ignored petitioner’s arguments
regarding this issue. (A1-A6). Petitioner prays this Writ be granted so that his guaranteed U.S.
Constitutional rights under the 14th Amendment are actually finally upheld.
B. The Seventh Circuit erred in ruling pro se's appeal is frivolous, charging him
$21,350, and imposing a filing bar until fees are paid since the grounds upon its
dismissal ruling juxtaposes a prior state Appellate and no opportunity was
given to dispute any judicially noticed facts

A party is entitled to be heard upon judicial notice, even after a dismissal. See Federal
Rules of Evidence Rule 201. Judicial Notice of Adjudicative Facts. After the district court
dismissed petitioner’s case on res judicata grounds using disputable judicially noticed
adjudicated facts (“disputable facts”) without providing the petitioner an opportunity to dispute
them (A65-A82), the Seventh Court ignored petitioner’s arguments citing thirteen disputable
facts (A32-A52) before affirming dismissal, claiming his appeal was frivolous, and then
imposing monetary ($21,350) and filing bar sanctions on him (A7-A9). However, only one of the
thirteen disputable facts needs to be highlighted here for the purpose of this issue. The lower
federal court’s res judicata ruling was based on the erroneous notion that the Cook County court
case (14-ch-15697, Case #9) had been dismissed with prejudice (A3,

5; All, footnote).

However, the district court’s ruling juxtaposes the rulings of both the state circuit and Appellate
courts that the case was actually dismissed without prejudice pending administrative exhaustion
of the 1SBE dismissal hearing {Board v. Petitioner, Case #4). On June 10, 2016, the Appellate

16

court, in confirming the Cook County court’s four-count dismissal ruling (A310-A313), stated in
a footnote, “Only count two was dismissed with prejudice.” (App. B, A-324, footnote 3).
Petitioner’s CTU attorney confirmed on April 10, 2020 there’s been no change in the status of
the 1SBE hearing (Board v. Petitioner, Case #4) since it was stayed on December 12, 2013. CA­
SS; App. B, A-323, footnote 1; A97). A requirement for res judicata to be applicable is the
finality on the merits of related claims. Montana v. United States, 440 US 147 (1979). Since
most of the claims in petitioner’s consolidated lawsuit (14-cv-6340, Case #5) relate to pending
intertwined cases (Board v. Petitioner, Case #4; and 14-ch-15697, Case #9), where neither has
reached a final adjudication, it was improper to dismiss the consolidated case (14-cv-6340, Case
#5) on res judicata grounds. Furthermore, it is an abuse of discretion for the Seventh Circuit to
assert an appeal is frivolous, ordering $21,350 and filing bar sanctions, after petitioner’s appeal
cited thirteen disputable judicially noticed facts, including one that juxtaposes prior state court
rulings that 14-ch-15697 (Case #9) was dismissed without prejudice - in effect sanctioning the
Board’s harassing conduct in violation of petitioner’s U.S. constitutional and Title VII rights
without further use of the courts to remedy. As such, petitioner prays this Writ be granted so his
sanctions can be reversed and petitioner has rightful access to the courts with a full and fair
opportunity to litigate his ongoing U.S. constitutional and Title VII claims against the Board.
C. Lower federal courts erred in dismissing a claim not challenged for dismissal;
occurred in and was required to be filed in court of competent jurisdiction

In the Board’s first motion to dismiss petitioner’s consolidated case (14-cv-6340, Case
#5) on April 16, 2015, its challenges to dismiss Count VIII were based upon legal deficiencies
(which petitioner corrected later in his SAC); and time-barred - which the district court rejected
in its ruling on January 29, 2016. On February 14, 2017, the Board never challenged Count VIII

17

for dismissal in its Response in Opposition to Plaintiffs Motion for Leave to File SAC. (App. B
A207-A218). In its second and final motion to dismiss on May 26, 2017, the Board only
challenged dismissing individual Board employees Claypool and Winckler from Count VIII arguing it was redundant to sue individuals in their official capacity when the Board was already
being sued. (App. B, A-122). As such, the Board voluntarily intended for Count VIII to proceed
to discovery and the federal court assisted the Board in a partial fashion by dismissing it anyway
without any explanation in a blanket res judicata ruling. The Seventh Circuit’s ruling also
ignored petitioner’s argument the Board never challenged Count VIII to be dismissed. (A1-A6).
The Seventh Circuit then claimed petitioner’s appeal was frivolous and sanctioned $21,350 with
a filing ban despite clarifying Count VIII was never challenged for dismissal against the Board.
(A7-A9). Had the court not ignored petitioner’s argument surrounding Count VIII’s dismissal,
res judicata would not have been applicable to the entire case.
Count VIII included injunctive relief relating to the Board’s violations of the IPRRA, 820
ILCS 40/13, which requires employers to expunge documents upon written notification that a
DCFS investigation was “Unfounded.” 820 ILCS 40/13 reads:
Sec. 13. An employer shall not gather or keep a record identifying an employee as
the subject of an investigation by the Department of Children and Family Services if the
investigation by the Department of Children and Family Services resulted in an
unfounded report as specified in the Abused and Neglected Child Reporting Act.
An employee upon receiving written notification from the Department of Children
and Family Services that an investigation has resulted in an unfounded report shall take
the written notification to his or her employer and have any record of the investigation
expunged from his or her employee record. (Source: P.A. 87-400.)
DCFS indicated Jane Doe’s rape claim against petitioner was “Unfounded” on June 10,
2011. Petitioner provided the Board proper written notification on March 12, 2013 for DCFS and
all related documents to be expunged from his personnel file. Expunging petitioner’s personnel
file would likely include the Board’s entire investigative file and subsequent charges against

18

petitioner in the ISBE dismissal hearing (Board v. Petitioner, Case #4). However, the Board has
refused to adhere to the IPRRA statute nine years and running and instead has continued using
“Unfounded” rape charges against petitioner in an ISBE dismissal hearing (Board v. Petitioner,
Case #4). On December 9, 2013, when the Board advanced Jane Doe’s false rape claim as ISBE
dismissal hearing charges in the jurisdiction of Cook County despite no longer employing him, it
generated a new IPRRA claim requiring a new lawsuit to be fded in a court of competent
jurisdiction. The IPRRA statute strictly prohibited petitioner from amending his Lake County
complaint (13-L-879, Case #2) filed weeks earlier to add an IPRRA claim. The IPRRA statute
under 820 ILCS 40/12(c) states the only jurisdictions to file a personnel file claim is:
“The circuit court for the county in which the complainant resides, in which the
complainant is employed, or in which the personnel record is maintained shall have
jurisdiction in such actions.” (Source: P.A. 84-525.)
Because the new Jane Doe claims in Cook County related to personnel file violations and
conspiracy against Doe and others, petitioner was statutorily required to file a new lawsuit in
either Champaign County (where petitioner resided), Cook County (where personnel files were
maintained), or federal court. The lower courts rulings (A1-A6; A65-A82) ignored petitioner’s
limited jurisdiction arguments that the new IPRRA claim could not be filed in Lake County court
in an amended complaint (A29, ]( 3; A43, ][ 3). “There is an alternative basis for not treating the
first judgment as res judicata - that the second (that is, the present) suit challenged unlawful acts
committed after the first suit, and hence is based on different facts...” Creek v. Village of
Westhaven, No. 95-1465 (7th Cir. 1996); LaSalle National Bank v. County of DuPage, 856 F.2d
925, 931-33 (7th Cir. 1988). “But if the supposedly wrongful events are separated by time and
function, multiple suits are permissible (even though not desirable).” Perkins v. Board of
Trustees of the University ofIllinois, 116 F.3d 235, 236 (7th Cir. 1997).

19

The survival of the IPRRA claim (Count VIII) against the Board should not only have
ended the unlawful 1SBE dismissal hearing {Board v. Petitioner, Case #4) but would have
rendered res judicata inapplicable on all counts. The Seventh Circuit (A1-A6) and district court
(A65-A82) rulings ignored every argument, statute, and case law precedence petitioner offered
in his favor on Count VIII (A30-A31) and was sanctioned $21,350 with a filing bar for doing so.
D. The lower courts erred in dismissing all three Title VII claims at the pleadings
stage and thus denied petitioner a full and fair opportunity to be heard
1. The court erred is dismissing a new and continuing Title VII post-harassment claim

Petitioner received his latest Title VII Right to Sue notice on May 9, 2016, related to the
stayed but still ongoing hypothetical ISBE dismissal hearing {Board v. Petitioner, Case #4) the
Board is using without statutory authority against petitioner as post-employment harassment.
The Lake County case (13-L-879, Case #2) the court used for res judicata purposes was
dismissed with prejudice on February 5, 2015 -15 months prior to petitioner receiving his Right
to Sue notice based on an ongoing Title VII post-harassment claim. The court clearly erred in
dismissing Count XIII (A47-A50) related to ongoing post-employment harassment, which is
permissible under Title VII. Robinson v. Shell Oil Co., 519 U.S. 337 (1997). The hypothetical
ISBE dismissal hearing is currently stayed and in the discovery phase with Jane Doe on recall
standby, two more witness to call including Jane Doe’s sister and the presiding judge’s former
law partner (assuming the ISBE hearing is continued and both of Jane Doe’s therapists are not
permitted to testily. Title VII claims are never precluded related to ongoing or unreviewed
administrative hearings. University of Tennessee v. Elliott, 478 U.S. 788, 795-96 (1986). And
claims that have not reached final adjudication cannot represent a final judgment on the merits
a prerequisite of res judicata. Nevada v. United States, 463 U.S. 110, 129-130 (1983). Both the
lower courts ignored this issue in dismissing this Title VII claim. (A1-A6, A65-A82).
20

2. The lower federal courts erred in dismissing a Title VII claim on identical state
procedural grounds used to deny a motion to amend to add the Title VII claim
Title VII “specifies with precision” the only two statutory prerequisites for filing a
lawsuit alleging a Title VII claim. Alexander v. Gardner-Denver, 415 U.S. 36, 47 (1974). A
plaintiff seeking to pursue a claim of retaliatory discharge under Title VII must first file a charge
with the EEOC that fairly encompasses the claim in question. In a state like Illinois, which has a
state law prohibiting retaliatory discharge, this charge must be filed within 300 days of the
alleged retaliatory discharge. 42 U.S.C. §§ 2000e-5(c), (e). A plaintiff must also obtain a rightto-sue notice from the EEOC or the U.S. Department of Justice (if against a government agency)
and file a Title VII claim in court no later than ninety days thereafter. 42 U.S.C. § 2000e-5(f)(l).
These are the only administrative requirements that a private-sector plaintiff such as petitioner
must satisfy before bringing a retaliatory claim under Title VII. See Alexander, 415 U.S. at 47
(the two prerequisites for filing a Title VII claim are the filing of a timely charge and receipt of a
notice of a right-to-sue); See also McDonnell Douglas Corporation v. Green, 411 U.S. 792, 79899 (1973) (prerequisites to Title VII suit are filing a timely charge and receiving and acting upon
a notice of right-to-sue).
On August 26, 2014 in Lake County circuit court (13-L-879, Case #2), a hearing was
held on petitioner’s motion to amend his complaint to add a Title VII claim (App. B, A-272)
with the Right to Sue notice he received on May 29, 2014.8 However, the Lake County court
judge would not permit an amended complaint to add the Title VII claim citing arbitrary reasons.
(App. B, A-99). The Lake County judge was angry petitioner filed a motion for substitution of
judge that forced him to read the case file when it was reassigned to him and felt this particular

8 The EEOC allowed petitioner to use the same Right to Sue notice for two separate Title VII claims (Jane
Doe-related suspension without pay and retaliatory termination) in two separate jurisdictions (Lake
County and federal court).
21

delay in the case was the result of petitioner’s conduct - and another delay to amend the
complaint would prejudice the defendants. The judge also stated the motion to amend was
procedurally deficient because petitioner did not timely propound on defendants the proposed
amended complaint.9 But both of these rulings were arbitrarily created and related to state
procedures, as a motion for substitution of judge has no relation with amending a complaint to
add a federal Title VII claim, nor did anyone cite a time requirement he allegedly violated to
propound a proposed amended complaint when the Title VII Right to Sue 90-day time
requirement had not yet expired. Complicating matters more due to no fault of the petitioner, the
judge was in a trial and nearly four weeks had passed before the Title VII issues could be
addressed from petitioner’s initial motion on August 1, 2014. Petitioner had also previously
informed the court several months prior during litigation that he still had a Title VII claim he
needed to add in the future. Neither the prior judge nor defendants had objected to such an
amendment before the Right to Sue notice arrived but the new judge seemed to have no interest
in judging petitioner’s case impartially - giving the Board immunity for statutory violations.
No argument has ever been presented by anyone that any of petitioner’s three dismissed
Title VII claims failed to meet the statutory prerequisites as required by Alexander and
McDonnell Douglas Corporation. These two Supreme Court cases are precedent in prohibiting
state and lower federal courts from arbitrarily adding Title VII prerequisites to bar a plaintiff
from having his properly filed Title VII claim heard. Id. As such, the lower federal courts erred
in using the same Lake County court’s state procedures used to deny a motion to amend to
dismiss the same Title VII claim (14-cv-7575, Case #6) after the Board removed it from Lake
County court to federal court when it was filed as a one-count lawsuit. (A5,

1; A79 f 1).

9 The Lake County judge also ruled that he did not have authority to extend the time to file the Title Vll
claim but this issue is moot because the 90-day Right to Sue notice had not yet expired and was filed
timely as a stand-alone lawsuit.
22

3. The lower federal courts erred in using dismissed state court claims to dismiss a
Title VII claim after state court procedures were used to deny the Title VII claim to
be joined with the later dismissed state claims

Besides the federal court dismissing petitioner’s Title VII claim from Lake County court
(13-L-879, Case #2) based on solely on state court procedures to deny a motion to amend to add
a related Title VII claim, it also proceeded to use the dismissed state counts from Lake County
court to dismiss the related Title VII claim (14-cv-7575, Case #6) on res judicata grounds after
the Title VII claim was removed to federal court. But as earlier argued, the Lake County judge
used state procedures (App. B, A-99) to deny petitioner’s motion to amend his complaint to add
the Title VII claim and petitioner was therefore forced into involuntary claim-splitting to meet
the EEOC’s 90-day filing requirement upon receipt of a Right to Sue notice. The court erred in
dismissing petitioner’s claims in this rickety “musical chairs” process because res judicata only
applies when petitioner has a full and fair opportunity to have his claims heard. Blonder-Tongue
Laboratories, Inc. v. University of Illinois Foundation et al., 402 U.S. 313. It is petitioner’s
position that using state procedures to deny adding a Title VII claim does not evoke a full and
fair opportunity to litigate the Title VII claim if the related dismissed state claims are
subsequently used to dismiss the same Title VII claim on res judicata grounds. There is simply
no procedural requirement under Alexander for petitioner to have a state claim survive as long as
the related Title VII claim was filed properly before all the related state claims were dismissed.
4. The lower federal courts erred in using unrelated state claims dismissed in state
court to dismiss a retaliatory dismissal Title VII claim in federal court after the
Board acquiesced to claim-splitting by prior agreement, litigated cases separately,
and removed a Title VII claim after arguing against an amended complaint

When petitioner removed the Jane Doe rape related claims from his Fifth AmendedComplaint in his first case (11 -cv-1712, Case #1) against the Board on May 6, 2013, it was based

23

on a good faith agreement between the petitioner and the Board to litigate the false rape-related
claims at the state level separately. (App. B, A272,

2). In fact, it was the Board’s idea to litigate

the Jane Doe claims separately (A-89, ^ 6-11). Then the Board terminated petitioner’s
employment on August 16, 2013 using a falsified “Unsatisfactory” evaluation. Petitioner refiled
the Jane Doe related false rape claims in Lake County court (13-L-879, Case #2) on November
21, 2013. Petitioner later filed his Title VII retaliatory termination lawsuit in federal court (14cv-6340, Case #5) on August 18, 2014 after receiving his Title VII Right to Sue notice on May
29, 2014. Both cases were filed in good faith accordance with the petitioner and Board’s claim­
splitting agreement and why two separates cases between federal court (ll-cv-1712, Case #1)
and Lake County court (13-L-879, Case #2) were litigated separately for 14 months.
The federal court dismissed petitioner’s Title VII retaliatory termination claim and the
Seventh Circuit affirmed in error, reasoning that petitioner could have filed the Title VII
termination claim with the Jane Doe claims in Lake County court back on November 21, 2013 or
with the last operating SAC on January 29, 2014. First, the lower courts had ignored prior
agreement arguments between the petitioner and the Board to split Jane Doe rape related claims
from all other claims - litigating two cases separately for 14 months. Claim-splitting is permitted
if the adverse party agrees or acquiesces to it. Walczakv. Chicago Board ofEducation, 739 F.3d
1013, 1018 (7th Cir. 2014). The district court gets around this argument by claiming the Board
didn’t acquiescence to claim-splitting when they raised it in 14-cv-6340, Case #5. But there was
no termination of the acquiescence agreement prior to petitioner’s filing of any of the new
complaints. In fact, before the Board removed petitioner’s Title VII claim from Lake County
state court (14-L-606, Case #6) to federal court (14-cv-7575, Case #6), it argued against adding
the Title VII claim to an amended complaint by stating, “There is nothing stopping Plaintiff from

24

filing a separate lawsuit in the U.S. District Court for the Northern District of Illinois alleging
Title VII retaliation based on the EEOC Charge.” (A277, Tf 1). As such, the Board arguing in
support of claim-splitting and removing the claim to federal court, they had acquiesced to claim­
splitting. Acquiescence is an exception to res judicata under Illinois case law, which governs
preclusive issues. “. . . the rule against claim-splitting does not apply to bar an independent claim
of part of the same cause of action if: the parties have agreed in terms or in effect that plaintiff
may split his claim or the defendant has acquiesced therein . . .” Rein v. David A. Noyes & Co.,
665 N.E.2d 1199, 1207 (Ill. 1996). Therefore, the Board acted in bad faith by raising res judicata
arguments before the district court unfairly applied it to dismiss petitioner’s claims.
Second, petitioner’s retaliatory termination was not related to the Jane Doe related rape
claims but rather an “Unsatisfactory” evaluation in U.S. History. These are two completely
separate causes of action based on completely different facts. In order for res judicata to be
applicable, there has to be an identity of the causes of action. Cooney v. Rossiter, 2012 IL
113227,

18, 986 N.E.2d 618, 621. Further, the reinstatement relief requested in a Title VII

retaliation claim could not have been granted in a court of limited jurisdiction as Lake County.
Third, Title VII claims require an administrative process that includes the EEOC and the
U.S. Department of Justice Civil Rights Division (for educational institutions like the Board)
prior to filing a claim in court. McDonnell Douglas Corporation. Because the Board’s dismissal
notice emailed to petitioner on August 16, 2013 only mentioned the termination was for
budgetary reasons, it was not until late October 2013 before a CTU grievance process could
confirm petitioner’s termination was related to his falsified “Unsatisfactory” evaluation.
Petitioner’s operating Lake County court SAC was January 29, 2014. Petitioner did not receive
his Title VII 90-day Right to Sue notice regarding the retaliatory termination until May 29, 2014.

25

Fourth, the Lake County judge denied petitioner’s motion to amend his complaint to add
a Jane Doe related Title VII suspension without pay claim anyway. So the court erred in
dismissing petitioner’s Title VII retaliatory termination claim based on a mythical requirement it
had to be filed with an amended complaint when there is no guarantee an amended complaint
motion will be granted. As explained earlier in Alexander, the EEOC has two requirements
before a Title VII claim can be filed in court. The lower federal courts ignored the prerequisite
Title VII administrative arguments (A35, Tj 3 - A38; A78) before dismissing petitioner’s Title
VII retaliatory termination and Jane Doe rape-related suspension without pay claims.
5. Summary of the three Title VII Right to Sue dismissals

The grant of a Writ is needed in this case to prevent arbitrary dismissals by state and
federal courts for reasons outside the only two prerequisites identified in Alexander - and thus
rendering the EEOC Right to Sue process a crapshoot for litigants. But sorely as in this case, the
Writ is needed also to prevent the EEOC Right to Sue process from becoming an credulous trap
for aggrieved litigants who end up having their Title VII claims arbitrarily dismissed and
subsequently punished with large monetary sanctions for appealing blatant errors in the dismissal
of their claims. In the instant matter, the rulings were so erroneous that the Seventh Circuit has in
effect permitted the petitioner’s former employer to continue post-employment harassment
against him with charges in a dismissal hearing without any judicial recourse to stop it due to a
filing bar sanction. These types of rulings, if allowed to stand, would end up encouraging and
rewarding employers who persist in harassing employees or ex-employees who are already
litigating claims against them and most certainly discourage citizens like petitioner in a protected
class from pursuing their constitutional and Title VII rights in the judicial system - if the end
result is $21,350 in sanction fees and a filing ban.

26

E. Judicial officers can be sued if acting outside their scope of authority by
presiding over a hypothetical administrative dismissal hearing

When the district court approved petitioner’s claims in the consolidated SAC (14-cv6340, Case #5) (App. B, A19-68) before it was dismissed on res judicata grounds, it approved a
due process violation for injunctive relief under the 14th Amendment against the ISBE dismissal
hearing officer based on pleadings he lacked statutory authority to convene a dismissal hearing to
investigate rape claims that were already “Unfounded” by DCFS, and also under 105 ILCS 5/3485 which require a party to the proceedings to be a “tenured teacher.” (App. B, A50-A53) The
district court ruled and the Seventh Court affirmed (A5,

3) that the ISBE hearing officer had

absolute judicial immunity for civil liability. (A80-A82). However, neither ruling analyzed how
the ISBE hearing officer was acting within the statutes citied in petitioner’s pleadings that limit
his authority as a fact-finder and recommender as to whether a tenured teacher should be
dismissed or not. Supreme Court precedence has established that judicial officers can be sued
under 42 U.S.C. § 1983 for injunctive relief they are acting outside the scope of their statutory
authority. Pulliam v. Allen, 466 U.S. 522 (1984).
The Board’s investigative file has already been established as fact that their investigation
was prompted by DCFS notifying principal Evans they were investigating a report made through
their office petitioner raped Jane Doe when she was 17 years old.

The Child Reporting Act

under 325 ILCS 5 et seq. does not give the Board or the ISBE Hearing Officer statutory
permission to conduct an independent investigation or fact find rape claims like this when they
are initiated through DCFS. The Child Reporting Act under 325 ILCS 5/7.3 states:
“The Department shall be the sole agency responsible for receiving and
investigating reports of child abuse or neglect made under this Act.”
10 Jane Doe was never a student with the Board in the jurisdiction of Cook County, but rather another
school district in Lake County.
27

The only other agencies that have statutory authority to investigate reports made through
DCFS are the state police, local law enforcement, and private social service agencies designated
by the Department prior to 1980. Id. The Child Reporting Act does not list the Board or the ISBE
as an authorized agency to investigate reports made through DCFS. 325 ILCS 5/7.3. Because the
Child Reporting Act does not list the ISBE as an authorized agency to independently investigate
reports made through DCFS, neither the ISBE hearing officer nor petitioner’s attorney were able
to secure an in-camera review of Jane Doe’s mental health records through a court order, which
was necessary to make due process constitutional since the Board relied upon therapist
statements to form the basis of their charges.
325 ILCS 577.4(d) further states:
(d) If the Department has contact with an employer, or with a religious institution
or religious official having supervisory or hierarchical authority over a member of the
clergy accused of the abuse of a child, in the course of its investigation, the Department
shall notify the employer or the religious institution or religious official, in writing, when
a report is unfounded so that any record of the investigation can be expunged from the
employee's or member of the clergy's personnel or other records. Id.
This part of the statute is consistent with the IPRRA under 820 I LCS 40/13 cited earlier
on page 18 of this petition requiring employers to expunge related documents gathered prior or
after an “Unfounded” DCFS report.
325 ILCS 5/7.14 further states:
“. . .Notwithstanding any other provision of law to the contrary, an unfounded
report shall not be admissible in any judicial or administrative proceeding or action
except for proceedings under Sections 2-10 and 2-21 of the Juvenile Court Act of 1987
involving a petition filed under Section 2-13 of the Juvenile Court Act of 1987 alleging
abuse or neglect to the same child, a sibling of the child, or the same perpetrator . . Id.
The Board’s use of the DCFS report as the initiator of its investigation is clearly
prohibited from being used in an ISBE dismissal hearing. Every single charge made against the
petitioner stemmed as a result of the Board’s illegal independent investigation of Jane Doe’s rape

28

claim initiated by Dr. Welke’s report to DCFS. Therefore, neither the “Unfounded” report or any
documents that relate to it, which would include the Board’s entire investigative file and
subsequent charges, cannot therefore be admissible in an ISBE dismissal hearing.
Illinois statute 105 ILCS 5/34-85 (A145-A148) requires a party to be a tenured teacher
employed by the school board bringing charges. (A113). The statute also requires an employee
be made whole for lost earnings if he is not dismissed based on the ISBE charges. (A114).
Petitioner’s dismissal was related to an “Unsatisfactory” evaluation on August 16, 2013. As
such, the ISBE does not have statutory authority to conduct a hypothetical dismissal hearing to
determine if petitioner would have been entitled to his back pay if the Board still employed him.
In fact, the Board recently admitted in a recent ISBE administrative dismissal hearing11 that the
Illinois school code does not give the ISBE Hearing Officer any other authority than to
recommend a penalty other than a dismissal (A 139, U 3

A140, 1| 2)

which is clearly

applicable to this matter. The Hearing Officer in that matter declined to make any
recommendations that exceed his statutory authority. (A 140, K 2). In the instant matter, the ISBE
hearing officer chose to proceed with the dismissal hearing outside his statutory authority limited
to recommending or not recommending dismissal. 105 ILCS 5/34-85(a)(6). (A148).
The lower court rulings ignored how the ISBE hearing officer’s judicial functions weren’t
in violation of these statutes and only cite he has judicial immunity for civil liability - which was
not pled. If the Writ is not granted, a new ISBE hearing officer will reconvene the hypothetical
dismissal hearing without statutory authority and with the Board will continue to violate
petitioner’s U.S. constitutional and Title VII rights- especially knowing petitioner has no
judicial recourse due to a filing ban in effect until he has paid $21,350.

11 In the matter of the Charges Preferred Against: Erika Stevens, Respondent, by: The Chief Executive
Officer of the Board of Education, Petitioner. Dated March 14, 2019.
29

F. Federal judge who dismissed petitioner's lawsuit had a former law partner who
would have been called to testify as a material character witness

After the district court erroneously dismissed petitioner’s claims through res judicata,
petitioner learned that district court judge John Z. Lee had a former law firm partner of eight
years whom petitioner used to coach for several years when she was a teenager. Character
witness testimony is material in rape allegations when there are no direct witnesses. Petitioner
would need to call upon a few former athletes to testify as to his coaching character to counter
Jane Doe’s solicited claims that petitioner’s coaching character including hitting and forcibly
raping her as a 17-year old because she didn’t run fast enough. Out of several hundred athletes
petitioner coached from 1991 to 2011, Judge Lee’s former law partner is only one of 17
teenagers petitioner coached for multiple seasons beyond two. And out of those seventeen
athletes, Judge Lee’s former law partner is only one of two who currently work in the Chicago
area and would be immediately available to testify as a character witness. Had Judge Lee
followed applicable laws and not dismissed petitioner’s case, this conflict would have eventually
come to light and he would have had to disqualify himself under 28 U.S. Code § 455(b)(2). 28
U.S. Code § 455(b)(2) reads:
(b) He shall also disqualify himself in the following circumstances: (2) Where in private
practice he served as lawyer in the matter in controversy, or a lawyer with whom he
previously practiced law served during such association as a lawyer concerning the
matter, or the judge or such lawyer has been a material witness concerning it. (emphasis
added).
It is unknown if Judge Lee had prior knowledge that one of his former law partners
would be called as a material witness had he acted as an impartial judge and the case had
proceeded, nor does it matter. Who knows? Maybe Judge Lee became aware of the material
witness conflict and for whatever reason decided it was best to dismiss the case by any means
necessary. The Seventh Court ignored this issue on appeal.

30

XI.

Conclusion
For the foregoing reasons, the petition for a writ of certiorari should be granted.
Respectfully submitted,

Mark Thompson ^
Petitioner, Praise
P.O. Box 8878
Champaign, IL 61821
drmarkthompson@aol.com
(217) 480-6256
April 20, 2020

31

